<html>
<title> - JUSTICE FOR ALL: ENDING ELDER ABUSE, NEGLECT, AND FINANCIAL EXPLOITATION</title>
<body><pre>[Senate Hearing 112-61]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 112-61
 
      JUSTICE FOR ALL: ENDING ELDER ABUSE, NEGLECT, AND FINANCIAL 
                              EXPLOITATION

=======================================================================

                                HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS


                             FIRST SESSION

                               ----------                              

                             WASHINGTON, DC

                               ----------                              

                             MARCH 2, 2011

                               ----------                              

                            Serial No. 112-1





         Printed for the use of the Special Committee on Aging
      JUSTICE FOR ALL: ENDING ELDER ABUSE, NEGLECT, AND FINANCIAL 
                              EXPLOITATION




                                                         S. Hrg. 112-61

      JUSTICE FOR ALL: ENDING ELDER ABUSE, NEGLECT, AND FINANCIAL 
                              EXPLOITATION

=======================================================================

                                HEARING

                               BEFORE THE

                       SPECIAL COMMITTEE ON AGING

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS


                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             MARCH 2, 2011

                               __________

                            Serial No. 112-1

         Printed for the use of the Special Committee on Aging


         Available via the World Wide Web: http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-957                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4d5a456a495f595e424f465a0449454704">[email&#160;protected]</a>  

                       SPECIAL COMMITTEE ON AGING

                     HERB KOHL, Wisconsin, Chairman

RON WYDEN, Oregon                    BOB CORKER, Tennessee
BILL NELSON, Florida                 SUSAN COLLINS, Maine
BOB CASEY, Pennsylvania              ORRIN HATCH, Utah
CLAIRE McCASKILL, Missouri           MARK KIRK III, Illnois
SHELDON WHITEHOUSE, Rhode Island     JERRY MORAN, Kansas
MARK UDAL, Colorado                  RONALD H. JOHNSON, Wisconsin
MICHAEL BENNET, Colorado             KELLY AYOTTE, New Hampshire
KRISTEN GILLIBRAND, New York         RICHARD SHELBY, Alabama
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      SAXBY CHAMBLISS, Georgia
                              ----------                              
                 Debra Whitman, Majority Staff Director
             Michael Bassett, Ranking Member Staff Director


                                CONTENTS

                              ----------                              

                                                                   Page

Opening Statement of Senator Kohl................................     1
Statement of Senator Corker......................................     2
Statement of Senator Collins.....................................     2
Statement of Senator Blumenthal..................................     3
Statement of Senator Manchin.....................................     4

                           PANEL OF WITNESSES

Statement of Mickey Rooney, Actor, Entertainment Legend, Elder 
  Abuse Victim and Advocate, Los Angeles, CA.....................     4
Statement of Kay Brown, Director, Education, Workforce and Income 
  Security, Government Accountability Office, Washington, DC.....    10
Statement of Kathleen Quinn, Executive Director, National Adult 
  Protective Services Association (NAPSA), Springfield, IL.......    11
Statement of Mark Lachs, MD, MPH, Director of Geriatrics, New 
  York Presbyterian Health System, Co-Chief, Division of 
  Geriatric Medicine and Gerontology, Weill Medical College of 
  Cornell University, New York, NY...............................    13
Statement of Bonnie Brandl, Director, National Clearinghouse on 
  Abuse in Later Life (NCALL), a Project of the Wisconsin 
  Coalition Against Domestic Violence, Superior, CO..............    15
Statement of Marie-Therese Connolly, Director, Life Long Justice 
  (LLJ) (An Initiative of Appleseed), and Senior Scholar, Woodrow 
  Wilson International Center for Scholars, Washington, DC.......    16

                                APPENDIX
                   Witness Statements for the Record:

Mickey Rooney, Actor, Entertainment Legend, Elder Abuse Victim 
  and Advocate...................................................    26
Kay Brown, Director, Education, Workforce and Income Security, 
  Government Accountability Office...............................    28
GAO report titled ``Elder Justice: Stronger Federal Leadership 
  Could Enhance National Response to Elder Abuse''...............    43
Kathleen Quinn, Executive Director, National Adult Protective 
  Services Association...........................................   107
Mark Lachs, Director of Geriatrics, New York Presbyterian Health 
  System and Co-Chief, Division of Geriatric Medicine and 
  Gerontology, Weill Medical College of Cornell University.......   119
Bonnie Brandl, Director, National Clearinghouse on Abuse in Later 
  Life, a Project of the Wisconsin Coalition Against Domestic 
  Violence.......................................................   127
Marie-Therese Connolly, Director, Life Long Justice (an 
  initiative of Appleseed) and Senior Scholar, Woodrow Wilson 
  International Center for Scholars..............................   147

            Additional Statements Submitted for the Record:

Alabama Department of Human Resources, Adult Protective Services.   168
American Bar Association.........................................   170
Boulder County, Community Services Department....................   172
Brookdale Center for Healthy Aging and Longevity.................   177
California Elder Justice Workgroup...............................   213
Chester County Department of Aging Services......................   220
Council of Senior Centers and Services of New York City..........   221
John Dornheim, Dallas Adult Protective Services Community Board..   225
The Elder Justice Coalition......................................   226
Family Violence Prevention Fund..................................   228
The Financial Services Roundtable................................   230
Tonya Gardner, Portsmouth, VA....................................   236
The Hebrew Home for the Aged at Riverdale........................   237
Investor Protection Trust and the Investor Protection Institute..   243
Jewish Women International.......................................   248
Leading Age......................................................   252
Lifespan.........................................................   255
Philip C. Marshall, South Dartmouth, MA..........................   263
Rebekah McGowan, Shawnee, OK.....................................   266
State of Michigan, Department of Human Services..................   268
National Adult Protective Services Association...................   270
National Adult Protective Services Training Partnership..........   271
National Association to Stop Guardian Abuse......................   273
National Committee for the Prevention of Elder Abuse.............   275
National Hispanic Council on Aging...............................   285
National Organization to End Guardianship Abuse..................   294
North Carolina Department of Health and Human Services...........   304
Safe Havens......................................................   308
Norman Shaifer, Tappan, NY.......................................   311
Shawano County Adult Protective Services.........................   313
Beverly Sorenson.................................................   315
Texas Elder Mistreatment Institute...............................   316
Thelma Tone......................................................   318
UJA-Federation of New York.......................................   319
Utah Division of Aging and Adult Services........................   321
Wisconsin Adult Protective Services..............................   340
Wisconsin Coalition Against Domestic Violence....................   343


      JUSTICE FOR ALL: ENDING ELDER ABUSE, NEGLECT, AND FINANCIAL 
                              EXPLOITATION

                              ----------                              


                        WEDNESDAY, MARCH 2, 2011

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:05 p.m. in Room 
SD-106, Dirksen Senate Office Building, Hon. Herb Kohl, 
Chairman of the Committee, presiding.
    Present: Senators Kohl [presiding], Wyden, Manchin, 
Blumenthal, Corker, and Collins.

        OPENING STATEMENT OF SENATOR HERB KOHL, CHAIRMAN

    The Chairman. Good afternoon to everybody. We'd like to 
thank our witnesses, in addition to welcoming everyone 
attending today's hearing.
    It's very easy to lose sight of problems that aren't right 
in front of us every day. However, today we're going to focus 
on a problem that doesn't often get the attention it deserves, 
namely elder abuse. To those victims of abuse, there is no 
bigger problem in the world. And to the rest of us charged with 
stopping it, it should be a top priority.
    The physical, mental, and the financial abuse of our 
Nation's seniors is all too common. In 2009 in my State of 
Wisconsin, over 5,000 cases of suspected abuse, neglect, or 
financial exploitation were reported. And this was a 9-percent 
increase over 2008.
    These crimes are being committed by people because their 
victims are often fragile, and their chance of getting caught 
is slim. We need to find solutions and then take action. To 
begin, we must ensure that Federal, State, and local agencies 
work cohesively to combat elder abuse. To do so, I'm asking 
Congress to enact a series of commonsense legislation.
    Today, along with my colleagues, Senators Blumenthal, 
Casey, Gillibrand, and Nelson, we will be introducing the Elder 
Abuse Victims Act, with a strong endorsement from the Elder 
Justice Coalition. The bill will establish a first-ever Office 
of Elder Justice within the Justice Department that will 
protect America's seniors by strengthening law enforcement's 
response to elder abuse.
    In addition, I will introduce the End Abuse Later in Life 
Act. And I'm an original cosponsor of the Senior Financial 
Empowerment Act. While no legislation can end all exploitation, 
we must do everything in our power to help those victims that 
come forward asking for help.
    We'll start today's hearing with a legendary performer and 
a World War II veteran, Mr. Mickey Rooney, who has come here 
today to bravely share his personal story of abuse.
    We'll then review the findings of a Government 
Accountability Office report, which shows that our Federal 
response to elder abuse is lacking.
    We'll also hear testimony from the National Adult 
Protective Services Association and new information about the 
prevalence of elder abuse in the State of New York.
    Finally, our panelist from the Wisconsin Coalition Against 
Domestic Violence and Lifelong Justice will share their 
knowledge of abuse in later life and highlight the need for 
leadership and coordinated response.
    It's our hope that today's hearing will inspire others who 
find themselves in situations where they are being exploited to 
ask for help. We'll hear from Mr. Rooney. We will hear from 
more of our experts, but they are only the smallest fraction of 
the heartbreaking stories too many older Americans are living 
through at this time.
    For those of us on the dais, I know our witnesses will 
challenge us not to forget this issue when we leave this 
hearing today, and I hope and pray that we'll meet the 
challenge.
    The Ranking Member on this Committee, Senator Corker.

                STATEMENT OF SENATOR BOB CORKER

    Senator Corker. Thank you, Mr. Chairman.
    I'm going to be very brief, because I want to hear as much 
of your testimony, if not all, that you provide, and I have a 
number of conflicts.
    I want to thank you for coming. Because of who you are, 
there are a lot of people paying attention. I know that we 
talked, back behind the meeting room, and you talked about your 
story, and you said, ``No, this was a story that many, many 
seniors around our country are dealing with.'' I know it's 
tragic. We thank you so much for being here today.
    We have about 63 provisions right now in Federal statute 
regarding elder abuse. And one of the responsibilities of this 
committee is to really do the oversight necessary. So, I hope, 
after your testimony today, we'll have rigorous hearings just 
on the oversight of what is occurring. But, I thank you very 
much for being here, for traveling this distance, for lending 
your outstanding reputation and the love of the American people 
towards you to this issue.
    Thank you very much.
    The Chairman. Thank you, Senator Corker.
    Senator Collins.

               STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    First let me commend you for calling this hearing to shine 
a light on this extremely troubling and often hidden issue.
    I want to join both you and Senator Corker, in particular, 
in welcoming Mr. Rooney to our hearing today. Your presence 
here will help encourage so many others.
    While elder abuse is a significant problem in our society, 
it has received far less attention and study than other forms 
of domestic violence. According to the most recent National 
Incidence Study, more than 14 percent of our non-
institutionalized older adults have been victims of physical, 
psychological, or sexual abuse, neglect, or financial 
exploitation in the past year. Moreover, this is likely just 
the tip of the iceberg, since most cases are never reported. 
And, as a consequence, the true dimensions of elder abuse are 
still not known.
    Abused and neglected elderly persons are often among the 
most isolated victims of family violence. Tragically, they are 
most often abused by the very people closest to them, their 
spouses or their children. And the abuse happens in what should 
be the safety and security of their own homes. Generally, 
they're in a position of dependency on their abuser, and are 
either unable or unwilling to report that their loved ones have 
abused them.
    The problem of identifying the victims of family violence 
in my State is particularly difficult because we Mainers pride 
ourselves on our self-sufficiency. It's very difficult for 
seniors in Maine to ask for help. And we also hold our privacy 
in such high regard that we simply don't like to talk about 
what goes on behind the closed doors of our homes or in the 
private lives of our families and our neighbors.
    So, Mr. Chairman, I thank you so much for holding this 
important hearing. Combating elder abuse should be a national 
priority. It is no longer just a family responsibility.
    Thank you.
    The Chairman. Thank you very much, Senator Collins.
    Senator Collins. Thank you.
    The Chairman. Senator Blumenthal.

            STATEMENT OF SENATOR RICHARD BLUMENTHAL

    Senator Blumenthal. Thank you, Mr. Chairman. And I want to 
join my colleagues in thanking you for your leadership and for 
other Senators who are here today.
    And, to Mr. Rooney, I know that inevitably you will 
somewhat steal the show, but I'm grateful to you for being 
here, but also for the other witnesses who are here and others 
who are in the audience who are blowing the whistle on this all 
too often hidden scourge in our society.
    And I know, as someone who served as attorney general for 
20 years and fought this problem in homes, in nursing 
facilities, in assisted living situations, that it is all too 
often denied and hidden and invisible. And the reason often is 
the shame and embarrassment that comes with reporting being a 
victim. To be very blunt, let me tell you something that all of 
you already know, that it is unreported because people are 
embarrassed and ashamed. And they should not be, because we are 
all victims, at some points in our life, of these frauds, 
abuses, mistreatment, other kinds of crimes. They are crimes. 
And people should report them.
    And we've made great advances, thanks to the leadership of 
Senator Kohl and others in the Elder Justice Act, the Nursing 
Home Transparency and Improvement Act, the Patient Safety and 
Abuse Prevention Act. But, we need to do more. That's why we're 
here today. We need to do more, because it is unconscionable 
and unacceptable and intolerable, in our society, that we 
permit so many of our senior citizens to be victims of this 
kind of abuse, which can take many, many forms, but all of them 
are absolutely unconscionable and intolerable.
    And again, my thanks to all of you for being here today and 
giving us the benefit of your wisdom and insight into this 
problem.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Blumenthal.
    Senator Manchin.

             STATEMENT OF SENATOR JOE MANCHIN, III

    Senator Manchin. I, too, want to reiterate what all of my 
colleagues have said. And I appreciate so much the courage that 
all of you come--and Mr. Rooney, yourself--for coming in and 
sharing with us, that we can make it a better society for all.
    I represent the State of West Virginia. We have the second 
largest per capita basis, as far as seniors, in the United 
States, next to Florida. Tremendous.
    And I was Governor for a 6-year period. My main concern 
was--is, How do we allow people to live with the dignity and 
respect and the pride that each and every person deserves in 
the confines of their home--own homes, with assistance? So, 
everything we did was setting a priority about how people could 
live a quality of life, no matter what our age may be, or our 
condition.
    So, I thank you for this--bring this to light and how we 
can do. And I look forward to hearing how you believe that we 
can assist and make it better, I truly do. So, on behalf of a 
grateful State, let me say thank you for coming.
    The Chairman. Thank you very much, Senator Manchin.
    We'll now welcome our first witness, Mickey Rooney, to 
testify before the Aging Committee.
    Mr. Rooney began his acting career when he was less than 2 
years old. In the middle of his career he was drafted to serve 
in World War II, which he did so with pride. He has appeared in 
over 365 films over the course of his distinguished career. In 
1983, he won an Academy Award for lifetime achievement. Mr. 
Rooney joins us today to share his very personal story of elder 
abuse.
    Thank you for being here, Mr. Rooney. And we'd love to hear 
from you.

STATEMENT OF MICKEY ROONEY, ACTOR, ENTERTAINMENT LEGEND, ELDER 
           ABUSE VICTIM AND ADVOCATE, LOS ANGELES, CA

    Mr. Rooney. Thank you, Chairman Kohl, Ranking Member 
Corker, and members of the committee. My name is Mickey Rooney. 
And I want to thank you for this opportunity to testify today.
    We are here today on an issue preventing the abuse, 
neglect, financial exploitation of seniors. Unfortunately, I'm 
testifying before the committee today, not just as a concerned 
citizen, which we all should be, but as a victim of elder 
abuse, myself. And that's true.
    Throughout my life, I've been blessed with love and support 
of family, friends, and even the people who like my pictures, 
who are called fans. I have worked almost my entire lifetime in 
the business I love, like you do. I was lucky enough to be in a 
business I love, to entertain and to please other people. I 
worked with joy, but I've worked hard and diligently. But, even 
with success, my monetary thing, called money, was stolen from 
me--yes, stolen--by someone close. Close. I was unable to avoid 
becoming a victim of elder abuse.
    Elder abuse comes in many, many different forms: physical 
abuse, emotional abuse, and financial abuse. Financial. Each 
one of these causes are devastating, ladies and gentlemen, in 
its own right. Many times, sadly, as with my situation, the 
elder abuse involves a family member.
    When it happens, you feel scared, disappointed--yes, and 
angry. And you can't believe that it's happening to you. You 
feel overwhelmed. The strength you need to fight it. 
Complicated. You're afraid, but you're also thinking about your 
other family members, about the potential criticism of your 
family, your friends. People you know, they may not want to 
accept the dysfunction that you feel and need to share, because 
one should love their families, as I do. I love my family. And, 
for other reasons, you might feel hesitant to come forward, you 
might not be able to make rational decisions, intelligent 
decisions.
    What other people see as generosity, may in reality be the 
exploitation, manipulation, and, sadly, emotional blackmail of 
elders and people who are vulnerable. I know it because I, 
myself, happen to be one. My money was taken, was used, what 
finances I had. When I asked for information, I was told that I 
couldn't have any information of my own. ``What the hell? What 
are you talking about?'' I was told it was ``none of my 
business'', ``it's none of my business.'' And when you're told 
that, you're left to leave powerless.
    You can be in control of your life one minute, ladies and 
gentlemen, and in the next minute, like that, you have 
absolutely, believe it or not, no control of your life. 
Sometimes this happens quickly, but other times it's very, very 
gradual. You might wonder when all this truly began.
    In my case, I was eventually and completely stripped of the 
ability to make even the most basic decisions--where we go or 
what do we do--decisions that everyone likes to make. Over the 
course of time, my daily life became unbearable because all of 
this seemed to come out of nowhere. At first, it was something 
small, and I could control it. But, then it became something 
sinister that was completely out of my control. I felt trapped, 
scared, used, and frustrated. And, above all, when a man feels 
helpless, it's terrible. And I was helpless.
    For years, I suffered silently. I didn't want to tell 
anybody. I couldn't muster the courage. And you have to have 
courage to say--``I need help.'' And I knew I needed it. Even 
when I tried to speak up, I was told to, ``Shut up and be 
quiet. You don't know what you're talking about.'' It seemed 
that no one--no one wanted to believe me.
    But, ladies and gentlemen, I want you to know that I never 
gave up. I continued to share my story with others. I told them 
about the abuse my family and I have suffered. I'm now taking 
steps to right all of the wrongs. I'm now taking steps, ladies 
and gentlemen of the Senate, to right all the wrongs that were 
committed against me.
    I'm also thankful to my family, friends, and I like to call 
them, fans all over the United States and the world, who have 
expressed their support and caring for me.
    Ladies and gentlemen of the committee, I didn't tell you 
just a part of my story so that you, the Senators and Madam 
Senators, would feel sorry or feel sympathy for me. I came here 
for you to think of the literally millions of seniors who are 
abused.
    I am here today because it's so important that I share my 
story with others, especially those who may be watching at home 
or driving; suffering, maybe silently, as I was.
    To those seniors, and especially elderly veterans, Army, 
Navy, Marine--you veterans, like myself--I want to tell you 
this: You're not alone. And you have nothing--nothing, ladies 
and gentlemen--to be ashamed of. You deserve--yes, you 
deserve--better. You all have the right to control your own 
life. Everyone does. You have the right to control your life 
and be happy. Please, for yourself, end the cycle of abuse and 
do not allow yourself to be silenced anymore. Tell your story 
to anyone--someone--and let them know. And, above all--above 
all--have faith and have hope. Someone will hear you if we all 
stand strong together. Speak up and say, ``I'm being abused. 
This happened to me.'' If you speak up, we can take the 
necessary steps--the altogether two very necessary steps--to 
end the cycle--to end it--of elderly abuse.
    The elder abuse happened to me--that's why I'm here to tell 
you a little about it--to me, Mickey Rooney. I'm just a man 
doing a job, like you are. It was my job to entertain; it's 
your job to end things like this. It's why I'm here. And if it 
can happen to me, oh, God willing it--and unwilling it--it can 
happen to anyone. I know who I'm talking about. And I--I'm not 
speaking just for myself. What I hoped to be and what I was, 
was taken from me. I'm asking you to stop this cycle of elderly 
abuse. I mean just stop it. Now. Not tomorrow, not next month, 
but now. Let's stop--and you all have to vote to get this bill 
passed--two bills passed, so that it can go to our Congress, 
and Congress can send it to our President of the United States, 
Mr. Obama, and end it and say that it's a crime, and we will 
not allow it in the United States of America.
    Thank you. Thank you.
    Thank you, Senator Kohl.
    [Applause.]
    [The prepared statement of Mr. Rooney appears in the 
Appendix on page 26.]
    The Chairman. Thank you very much, Mr. Rooney, for your 
outstanding presentation in behalf of a very important issue, 
the abuse of seniors.
    Turn to Mr. Corker for a question or two.
    Mr. Rooney. Yes, Mr. Senator.
    The Chairman. Mr. Corker.
    Senator Corker. Mr. Chairman, I'm going to need to step 
out; I've had another meeting starting about 3 minutes ago.
    But, Mr. Rooney, I don't know of anybody who could be a 
better spokesman for this issue than you, and I thank you for 
coming forth. I know we're going to have another panel to talk 
about some of the stats and other kinds of issues. So I don't 
have a question, I just--I thank you for being here today, for 
the impassioned plea that you've laid out before us, and----
    Mr. Rooney. No, it----
    Senator Corker [continuing]. For having----
    Mr. Rooney [continuing]. Just, Mr.----
    Senator Corker [continuing]. For having the willingness to 
come do this, to share something that is very personal and, I 
know to some seniors, very embarrassing to talk about.
    Thank you.
    Mr. Rooney. Thank you, Mr. Senator.
    My thanks is to you, the United States Senate. And I truly 
hope they don't read your two bills with their eyes, but with 
their heart, and pass this bill so that it can go to the 
Congress of the United States and be signed into a law, by our 
President, Mr. Obama, that it's a crime.
    Thank you for listening. And God bless America.
    Senator Corker. Thank you, sir.
    The Chairman. Any more questions from anybody on the panel?
    Mr. Rooney. Anything you like.
    The Chairman. Any comments?
    Go ahead, Mr. Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join my colleagues in thanking you very sincerely 
for being here and providing a model of coming forth and 
courageously articulating your own personal experience.
    And maybe you could just give us one or two thoughts about 
how, for other seniors, they can take steps on their own, 
through their own initiative, to protect themselves against the 
kind of abuse that you suffered. I know you--in your case, you 
said you couldn't have prevented it, but perhaps others can, 
and maybe you can give us some insights about it.
    Mr. Rooney. Mr. Senator and you ladies of the Senate, you 
know, I feel for your having asked for me here.
    A lawyer, someone who has your personal interest at heart 
and feels what you've been through. We all know that, whether 
you're a sports fan or Arnold Palmer, whom I've played with--I 
went to the University of Southern California for 2 years, 
trying to learn more, and I had to get back to work--but a 
lawyer is--basketball players have lawyers, football players, 
tennis stars, golfers. Why can't the citizens afford a lawyer? 
And I'll tell you why. Very simply, they haven't any money. I 
had no money.
    And, is it all right for me to mention the company that----
    No. Well----
    Senator Blumenthal. I think you've been very helpful, and 
you've given us the benefit of a lot of information, and it's 
very----
    Mr. Rooney [continuing]. Well, I--how are these elderly 
citizens going to be able to afford a lawyer? I didn't. I had 
no money. Mine had been gone. You've got to stop it.
    And I thank you all for listening to my--do you have 
another question for me?
    Senator Manchin. Mr. Rooney----
    Mr. Rooney. Any question at all.
    Senator Manchin [continuing]. If I could ask you the 
question, sir. I don't think there's a person I know in the 
Senate, or probably in Congress, who doesn't want to help. I 
wouldn't know of a soul. And I appreciate the Chairman for 
taking this upon--he has two pieces of legislation.
    With that being said, what would be the easiest way--when 
you detected you were having a problem and you knew that there 
was someone taking over your life, what would have been the 
best way for you to have been able to reach out? Are we 
looking--like a 9-1-1 number? You know, we have different 
numbers, emergency numbers. How is it best that we're able to 
help to make sure that someone, when they see their life 
slipping away, can say, ``Listen, hold on. I'm going to call. I 
need help?''
    What do you think--since you've lived through it and you 
were able to count on your fans and your friends and your 
family to pull together. Some seniors have nobody, except maybe 
that one contact. And we've just got to find the right 
combination to make sure we're able to be effective. So, if--
whatever you think.
    Mr. Rooney. May I tell you how fortunate I was?
    Senator Manchin. Please do.
    Mr. Rooney. You'll hear the story. I won't make it long.
    I made about five pictures for the Disney Company, Walt 
Disney. When I was a child, I met Mr. Disney, who would draw a 
little mouse, and he said, ``I want you to see this.'' And I 
said, ``Thank you, Mr. Disney.'' He said--I said, ``What do you 
call him?'' He says, ``Mortimer Mouse.'' I said, ``He's 
wonderful.'' He said, ``Thanks, Mickey.'' Then Mr. Disney said 
to me, ``Mickey. Mickey Mouse. How would you like me to name 
this mouse after you? I'll call him Mickey Mouse.'' I said, 
``Thank you.'' Well, as years went on, I made five pictures for 
Disney----
    [Pause.]
    Senator Manchin. We have lawyers telling us what to do, 
too, so don't----
    Mr. Rooney. No, I was going to say----
    [Laughter.]
    The Disney legal firm didn't like what was happening. And I 
was fortunate enough--I was fortunate enough--to get my 
lawyers, who care.
    My stepdaughter--I mean, my daughter-in-law--I've got a lot 
of stepdaughters--but, my daughter-in-law helped immensely, and 
my wife's son, Mark.
    So, that's the story. Disney afforded me. People are not 
going to be able to afford these things. Now, how--who can they 
call? Have you got a number that you could say--or is the 
government going to--in villages and across our great country, 
a line where you can call and say, ``I'm being abused, and I 
can't take it no more?'' ``What was your number?''
    Senator Manchin. So, you recommend an elder abuse number. 
An elder abuse number. Basically, a very----
    Mr. Rooney. I certainly do.
    Senator Manchin. Yeah.
    Mr. Rooney. You bet I do.
    Senator Manchin. I gotcha.
    Mr. Rooney. How else--and then they should have a team 
somewhere, that the government will supply to them, for the 
people, to say, ``Don't worry.''
    Senator Manchin. Well, the Chairman's bill does that. I 
mean, the--he's running on the right track. We just wanted to 
make sure that we were moving down the way that would be of 
best help to you.
    Mr. Rooney. Well, I'm sure he feels as I feel. And I'm 
sure, ladies and gentlemen of the Senate, and Madam Senators--
I'm sure that you'll pass this bill. It is so badly needed in 
our great United States of America.
    Thank you for inviting me here.
    Senator Manchin. Thank you.
    The Chairman. Thank you, Mr. Rooney. You're----
    Mr. Rooney. God bless.
    Chairman Kohl [continuing]. You were outstanding today.
    Mr. Rooney. No, I wasn't. I'm----
    [Laughter.]
    I think it was a bad performance.
    The Chairman. You're the best.
    Mr. Rooney. Thank you.
    God bless you all. And God bless our country.
    [Applause.]
    [Pause.]
    The Chairman. We'll now move on to our second panel.
    If you would step, please, to the front.
    Our first witness on the second panel will be Kay Brown, a 
director in the Government Accountability Office's Education 
Workforce and Income Security Team. Throughout her 25-year 
career at GAO, Ms. Brown has focused on improving government 
performance and delivering benefits and services to low income 
and vulnerable population.
    Mr. Rooney. Here's a man that's done it all.
    [Laughter.]
    The Chairman. All right.
    And our second witness will be Kathleen Quinn. She is the 
Executive Director of the National Adult Protective Services 
Association and advisory board member of the Elder Justice 
Coalition. Ms. Quinn previously served as a policy advisor to 
the Illinois Attorney General and as a chief of the Bureau of 
Elder Rights for the Illinois Department on Aging.
    Next, we'll be hearing from Dr. Mark Lachs. He is Director 
of Geriatrics for the New York Presbyterian Health System, also 
Co-Chief of the Division of Geriatric Medicine and Gerontology 
at the Weill Medical College of Cornell University, and a 
tenured professor of medicine at the college.
    Next, we'll be hearing from Bonnie Brandl. She's the 
director of the National Clearinghouse on Abuse in Later Life, 
a project of the Wisconsin Coalition Against Domestic Violence. 
She's facilitated trainings for law enforcement, victims' 
services providers, and other professionals on elder abuse 
throughout the United States.
    Finally, we'll be hearing from Marie-Therese Connolly. 
She's the Director of Life Long Justice, a strategic advocacy 
initiative, with other leaders in the field, to advance elder 
justice. Ms. Connolly is also senior scholar at the Woodrow 
Wilson International Center for Scholars, and a consultant to 
the U.S. Department of Justice project on elder abuse.
    We thank you all for being here.
    Ms. Brown, we'll take your testimony.

  STATEMENT OF KAY BROWN, DIRECTOR, EDUCATION, WORKFORCE AND 
INCOME SECURITY, GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, 
                               DC

    Ms. Brown. Mr. Chairman and members of the committee, thank 
you for inviting me here today to talk about our work on elder 
abuse.
    Each day, we hear news reports, similar to what you've just 
heard from Mr. Rooney, about older adults who are abused, 
exploited, and denied needed care, often by those they depend 
on the most. In addition to harming individuals, elder abuse 
results in added costs to society for increased healthcare, 
social services, and long-term residential care.
    My remarks are taken from a report, requested by Chairman 
Kohl, that we are releasing today. And I will cover two topics: 
the challenges faced by State Adult Protective Service 
programs, which are the programs that receive and respond to 
allegations of elder abuse at the State level, and the Federal 
actions taken to help these programs do their jobs.
    First, regarding the State programs. They face daunting 
challenges when responding to elder abuse. In many States, 
caseloads are growing and cases are becoming more complex, 
often involving multiple types of abuse. At the same time 
funding is not keeping pace, which affects both staff levels 
and training. Access to information on how to resolve elder 
abuse cases is limited, and not enough is known about what 
interventions can make a difference. Further, needed 
collaboration with law enforcement, prosecutors, and financial 
institutions is uneven. And lastly, Statewide administrative 
data systems can be outdated or incomplete. These data, for 
example, could help identify programmatic trends, such as the 
characteristics of the most vulnerable adults.
    Moving on to my second topic, regarding Federal activities. 
Although States are primarily responsible for protecting their 
older residents, the Older Americans Act and the Elder Justice 
Act have both established a Federal role in this area. In our 
study, we found that Federal activities have provided some 
assistance to State programs, but have fallen short in several 
key areas. For example, the Departments of Justice and HHS 
spent a combined $11.9 million in 2009 for certain projects, 
such as ones to help States and localities develop 
multidisciplinary elder abuse teams or to identify barriers 
related to elder abuse prosecution. However, these activities 
have been on a small scale and have not helped States address 
some of their most pressing challenges. For example, they have 
not helped States address or obtain information and guidance on 
effective interventions, nor have they resulted in any real 
progress toward a nationwide Adult Protective Services 
reporting system.
    State program officials and other experts told us that a 
national data system would help them target their efforts, 
appropriately allocate funds, and share practices. In our 
report, released today, we recommend that HHS take steps to 
address these needs for information and for a national data 
system.
    Finally, we found a lack of strong leadership. Federal 
efforts are scattered across multiple offices in Justice and 
HHS, as you can see from the graphic before you, which we call 
our ``spider graphic'' because of the many different directions 
that the efforts are spreading. Under the Older Americans Act, 
the primary responsibility for national leadership in the elder 
justice area rests with HHS's Administration on Aging. But, 
this agency has yet to assume a leadership role. According to 
its officials, they are constrained by limited funding.
    Lacking leadership, there is no assurance that these 
Federal efforts are addressing the most critical priorities, 
are mutually reinforcing, or are making the most efficient and 
effective use of scarce resources. The Elder Justice Act 
created vehicles for developing and implementing national 
priorities through a Federal Elder Justice Coordinating Council 
and a non-Federal advisory board. However, as yet, neither has 
been established.
    In conclusion, while this Nation's public policies 
encourage adults to remain in their homes and communities as 
they age, the system in place to protect them may not be well 
positioned to meet their needs as the number of older adults 
grows in the coming years.
    This concludes my prepared statement. I'm happy to answer 
any questions.
    [The prepared statement of Ms. Brown appears in the 
Appendix on page 28.]
    [The GAO report titled ``Elder Justice: Stronger Federal 
Leadership Could Enhance National Response to Elder Abuse'' 
appears in the Appendix on page 43.]
    The Chairman. Thank you very much, Ms. Brown.
    Now we'll hear from Kathleen Quinn.

STATEMENT OF KATHLEEN QUINN, EXECUTIVE DIRECTOR, NATIONAL ADULT 
    PROTECTIVE SERVICES ASSOCIATION (NAPSA), SPRINGFIELD, IL

    Ms. Quinn. Chairman Kohl, Senator Corker, distinguished 
members of the committee, thank you for convening this first 
ever congressional hearing addressing Adult Protective 
Services, or APS.
    Senator Kohl, the Nation's APS programs thank you for 
requesting the GAO report on APS. And thanks, to the GAO, for 
doing such an outstanding job on the research and the report.
    I'm Kathleen Quinn, director of the National Adult 
Protective Services Association, NAPSA. We're the only national 
voice for APS programs, staff, and clients. Our mission is to 
enhance the capacity of APS to effectively protect and serve 
abuse victims. I bring to this work 30 years experience in the 
fields of domestic violence, elder abuse, APS, and the long-
term-care ombudsman program.
    APS is--as has been mentioned, is the formal system in 
every State for receiving reports of abuse, neglect, and 
exploitation of older persons, and, in nearly all States, of 
younger adults with severe disabilities, as well. Just as any 
response to child abuse begins with the State Child Protective 
Services systems, the response to elder abuse must start with 
APS, which is a public safety program. We are, in fact, the 911 
number that victims and concerned people about them can call. 
We investigate the allegations of abuse and we provide 
emergency, protective, and other services to protect and assist 
the victims.
    We know over 95 percent of older persons live in the 
community, in their own homes, and roughly 90 percent of the 
abuse perpetrated against them is done by their own family 
members.
    Front-line APS staff, typically the first responders in 
these abuse cases, face extremely complex situations, often 
involving life-and-death medical conditions; criminal 
activities, including violence, drug dealing, and weapons; 
mental illness; dementia; complex financial frauds; 
intergenerational family disputes and dysfunctions; legal 
issues; filth and extreme neglect, often causing years of 
horrific suffering and undoubtedly killing far more older 
persons than does physical abuse.
    Any criminal activity which occurs, within the family or 
not, needs to be investigated and vigorously prosecuted. But, I 
need to establish that APS responds to many, many cases that do 
not involve criminal conduct. When there is criminal behavior, 
we call in law enforcement and work closely with them to make 
sure the abuser is held accountable. But, whether there's 
criminal behavior or not, APS must make sure the victim is both 
cared for and protected.
    Many extremely complex cases do not involve a clearly 
culpable offender, but they do have mentally and physically 
ill, developmentally disabled, and/or demented people 
struggling to get through each day. APS must deal with the 
entire situation. If we only considered the elder abuse that 
does rise to the level of crime, I fear we risk leaving out 
thousands upon thousands of invisible, forgotten victims whose 
situations may not--not only involve any crimes, they may not 
even involve any malice, but who are nonetheless suffering and 
have significantly jeopardized health and safety.
    One group that would be left out are people who self-
neglect, those who are unable to provide for their most basic 
needs and may be a danger to themselves and others. Why should 
we be concerned about hoarders and others living isolated lives 
in filth and disease? Besides human compassion, they cost us a 
lot of money by triggering repeated calls to public health, 
zoning, fire code, animal control, law enforcement, and APS; 
and, most importantly, they often require repeated healthcare 
interventions. APS works with these victims to prevent this 
cycle of deterioration and expense.
    APS--a recent study in Utah found that, of APS 
substantiated cases involving financial abuse, 9 percent, or 
almost 1 in 10, of the victims had to turn to Medicaid for 
healthcare, specifically because they lost their own money to 
exploitation. Given the extremely high rates of elder abuse, 
you can just imagine the enormous drain that elder financial 
abuse causes Medicaid and other public programs.
    APS is the only response system we have whose primary 
function is to respond to vulnerable adult abuse, neglect, and 
exploitation. We're also the only system serving victims of 
crime and abuse which relies solely on State funding decisions. 
As a result, as the GAO has pointed out, we have almost no 
national infrastructure for APS and we are faced with ever-
increasing caseloads and shrinking State budgets. We struggle 
just to answer the phones and provide the most basic service to 
extremely vulnerable adults. There is not even a single 
national APS resource center that could help struggling State 
programs provide cost-effective training, information, practice 
and data-collection standards, technical assistance, policy 
development on critical and complex issues, such as interstate 
compacts, and so on. Such a center, modeled on the literally 
dozens of such centers in child abuse, domestic violence, and 
other fields, could, for minimal expense, greatly enhance the 
capability of APS to provide the most effective and efficient 
services to abuse victims.
    NAPSA's the only national organization working to build 
capacity in APS, and we would really appreciate some help, so 
we can provide genuinely needed work, so that we can help APS 
programs work both effectively and efficiently in protecting 
our most vulnerable older citizens.
    Thank you very much.
    [The prepared statement of Ms. Quinn appears in the 
Appendix on page 107.]
    The Chairman. Thank you very much, Ms. Quinn.
    Dr. Lachs.

 STATEMENT OF MARK LACHS, MD, MPH, DIRECTOR OF GERIATRICS, NEW 
    YORK PRESBYTERIAN HEALTH SYSTEM, CO-CHIEF, DIVISION OF 
 GERIATRIC MEDICINE AND GERONTOLOGY, WEILL MEDICAL COLLEGE OF 
                CORNELL UNIVERSITY, NEW YORK, NY

    Dr. Lachs. Senator, I testify before you not only as a 
primary physician who cares for older people and has seen the 
ravages of elder abuse firsthand, but also as a scientist who's 
conducted research in elder abuse, much of it funded by NIH and 
NIJ, for the last 25 years. In addition to my Cornell and New 
York Presbyterian Hospital roles, I also run New York City's 
Elder Abuse Center, which I'll talk about.
    The hearing today is timely, not only because of the 
release of the GAO report, but also because it coincides with 
the release of a Statewide New York Study that my group at 
Cornell conducted with the New York City Department for the 
Aging and Lifespan of Greater Rochester. Funded by the New York 
State Office of Children and Family Services, it had two simple 
goals. First, to determine the annual incidence of elder 
mistreatment in our State, and second, to figure out how much 
of it we miss.
    The study is notable in a couple of respects. The first is 
that it's enormous. It's the largest of its kind in any single 
State. We directly interviewed over 3,000 older people to 
directly ask them about their experiences with mistreatment. 
And second, over the same period, we went to the many agencies, 
governmental and NGO, who formally respond to abuse, to see how 
many people they served. Our goal was to compare the numbers of 
people who experienced abuse--self-report it, that is--as 
opposed to those who actually come to light. And missing cases, 
we are.
    Of these 4,000 individuals, about 7.6 percent, 1 in 13, 
reported some form of mistreatment in the past year. The most 
common form was financial exploitation, which is why Mr. 
Rooney's testimony was so compelling, about 1 in 25 older 
Americans. Next common was physical abuse--2.2 percent, about 1 
in 50 Americans.
    So, Senators, this is out there. I tell the residents that 
I train that if you've seen 15 older people today in the 
clinic, whether you know it or not, you have seen an elder 
abuse victim.
    When we compare the known cases to the undiscovered cases, 
we found that, for every one we find, we miss about 23 or 24. 
And, for this reason, we entitled our report, ``Under the 
Radar.''
    Senators, in the remaining couple of minutes, I'd like to 
outline two or three recent developments in this field which I 
think have enormous promise.
    The first is the development of multidisciplinary Elder 
Abuse Centers or teams--in fact, Mr. Rooney, suggested this as 
an intervention--like those that have been created for child 
abuse, in which teams of physicians, social workers, attorneys, 
protective service workers collaboratively work to identify 
victims of mistreatment and meet their multitude of legal, 
medical, and other needs. We've created two such teams in New 
York City, and they grow on a monthly basis. I think this is a 
national model for assistance to victims, not only because it 
addresses injuries, but because it averts financial 
exploitation that ultimately robs people of the nest eggs that 
they have accumulated over the lifetime, and puts them on 
programs of public assistance.
    We know, from research that we've conducted, for example, 
that elder mistreatment is an independent risk factor, beyond 
your diseases, for going to a nursing home. And Medicaid is the 
major payer for nursing home care. So, in short, elder 
mistreatment victims, not only suffer, they suffer expensively 
and they suffer in ways that tax our public welfare systems, 
our healthcare systems, and our entitlement systems.
    And while my remarks today have focused primarily on abuse 
in the community, we should not forget that residents of 
nursing homes still remain at risk. And here, too, there will 
soon be new data. NIH and NIJ and the Department of Health in 
New York have recently funded innovative studies about a new 
form of recognized abuse, so-called resident-to-resident 
mistreatment. So much of the focus has been on staff abuse, we 
now know of situations in which patients with behavioral 
problems, mental health problems live together with frail older 
people. In a number of cases, there have been serious injuries, 
even deaths, from this. And those numbers will come out 
shortly.
    Everyone here today will tell you that this problem is 
under-resourced. You'll get no argument from me. But, if I had 
to make investments in two areas that have the major return on 
investment, I would suggest it's investment in 
multidisciplinary teams and centers that combat abuse and, I 
think, more research into this area that could really avert the 
financial toll of mistreatment that ultimately we all pay for 
in the form of premature nursing home placement.
    Senators, thank you for requesting the GAO report, letting 
me speak, and addressing the most hideous form of ageism 
imaginable.
    I'd just like to end by saying that we did not need to be 
reminded that Mickey Rooney is a national hero, but today we 
were, once again.
    Thank you very much.
    [The prepared statement of Dr. Lachs appears in the 
Appendix on page 119.]
    The Chairman. Thank you, Dr. Lachs.
    Now we'll hear from Bonnie Brandl.

STATEMENT OF BONNIE BRANDL, DIRECTOR, NATIONAL CLEARINGHOUSE ON 
    ABUSE IN LATER LIFE (NCALL), A PROJECT OF THE WISCONSIN 
       COALITION AGAINST DOMESTIC VIOLENCE, SUPERIOR, CO

    Ms. Brandl. Chairman Kohl, Senator Corker, distinguished 
committee members, thank you for the committee's continuing 
leadership and focus on elder justice.
    My name is Bonnie Brandl and I am the director of the 
National Clearinghouse on Abuse in Later Life, which is a 
project of the Wisconsin Coalition Against Domestic Violence.
    Miss Mary, age 96, lived with her grandson and his wife for 
5 years. Let's hear a few moments of her story, in her own 
words.
    [Video presentation.]
    Ms. Mary [from video]. Every month when he'd bring me a 
check, he--He didn't have no money to pay the mortgage, $500-a-
month mortgage. And he'd say, ``Hey, Granny, have you got any 
money?'' and said, ``Well, I'll get the next check and I'll pay 
you back.'' I let him have it. I gave him two $500 checks one 
time. And I said, ``Now, Bill, go pay that mortgage.'' And he 
said, ``Bring it back.'' Came back drinking. I never did see 
it. I never have seen any of my money.
    [End of video presentation.]
    Ms. Brandl. Ms. Mary never reported the financial 
exploitation. Then late one night, Ms. Mary called 911. When 
law enforcement arrived, they found a bloody and battered Ms. 
Mary, who had been beaten and sexually assaulted for hours by 
her middle-aged grandson. After raping his grandmother, Ms. 
Mary's grandson fell asleep in her bed.
    Paramedics transported Ms. Mary to the hospital, where she 
received medical care. Law enforcement arrested her grandson. 
Adult Protective Services helped place Ms. Mary in a nursing 
home. Prosecutors prosecuted her grandson, who is currently in 
prison. Sexual assault advocates provided advocacy and 
emotional support for Ms. Mary.
    Although the harm Ms. Mary experienced was horrific, this 
case illustrates an ideal collaborative response from health, 
social services, criminal justice, and advocacy systems.
    Unfortunately, in most communities the responses of these 
systems are imperfect and allow many victims to suffer in 
silence. Factors contributing to the current inadequate 
response include insufficient resources, limited or no training 
on elder abuse, and lack of collaboration among professionals.
    Unfortunately, many older adults like Ms. Mary are abused, 
neglected, or exploited by persons known to them. Offenders 
include spouses, partners, family members, caregivers, and 
others in positions of trust. A significant percentage of elder 
abuse is perpetrated by a spouse or partner.
    Years ago, I met a woman attending a support group in 
Wisconsin who was discussing her upcoming wedding anniversary. 
She described how she had been married for 60 years and abused 
throughout that marriage.
    As the GAO reports have described the Federal response to 
elder abuse is woefully inadequate. We must scale up our 
current responses and leverage existing resources and expertise 
to develop cost-effective prevention and intervention 
strategies.
    One small Federal program that is making a difference is 
funded by the Violence Against Women Act. The Abuse in Later 
Life Program is one of the smallest discretionary programs at 
the Office on Violence Against Women, with only about $3 
million distributed throughout the country each year, yet this 
is one of the largest Federal initiatives dedicated to elder 
abuse.
    The Office on Violence Against Women's Abuse in Later Life 
Program has four major components. First, law enforcement, 
prosecutors, court personnel, and victim service providers 
receive model training on identifying and responding to elder 
abuse, neglect, and exploitation. Second, cross training 
encourages and promotes cost-effective collaboration. Third, 
coordinated community response teams improve policies and 
protocols for responding to elder abuse cases. Finally, a 
fraction of the funding can be utilized for direct victim 
services.
    Each year, only 9 to 11 communities are funded, receiving 
approximately $400,000 over a 3-year period. The communities 
represent large urban and small rural communities, tribes, 
counties, and States.
    The Violence Against Women Act, the Older Americans Act, 
and the Elder Justice Act present opportunities to make a 
difference in the lives of older victims. Additional resources 
are needed to create and enhance victim services and to hold 
offenders accountable.
    This year, the Violence Against Women Act is up for 
reauthorization. I would like to thank Senator Kohl and 
Representatives Baldwin and Poe for being outspoken champions 
for the Abuse in Later Life Program.
    In conclusion, you are in a unique position to raise 
awareness and to look for opportunities and additional 
resources for those who are combating and responding to elder 
abuse. Older victims, like Ms. Mary, deserve to live their 
lives with dignity and respect.
    Thank you for focusing this hearing on the needs of older 
victims.
    [The prepared statement of Ms. Brandl appears in the 
Appendix on page 127.]
    The Chairman. Thank you very much, Ms. Brandl.
    Now we'll hear from Marie-Therese Connolly.

   STATEMENT OF MARIE-THERESE CONNOLLY, DIRECTOR, LIFE LONG 
JUSTICE (LLJ) (AN INITIATIVE OF APPLESEED), AND SENIOR SCHOLAR, 
 WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS, WASHINGTON, 
                               DC

    Ms. Connolly. Thank you. Chairman Kohl, Senators of the 
Aging Committee, thank you so much for your leadership on this 
long invisible but growing problem.
    I'm here to testify about how a modest investment in 
Federal leadership, research, and new programs, and a new 
office, could have a profound impact on the lives of millions 
of Americans.
    Let me begin with Ruby Wise. Last year, her son, Chris, was 
charged by Seattle prosecutors with her murder. His crime? 
Letting her rot to death with huge pressure sores, several 
bone-deep, while he played Internet poker and lived off her 
pension. His excuse? He was just respecting her wishes. She 
didn't want to go to a doctor or a nursing home.
    Ruby Wise was imprisoned in her bed by dementia, 
immobility, and isolation. She cried out for help continuously 
in the weeks before her death, but neighbors closed their 
windows and her son put in earplugs to muffle her cries. No one 
called Adult Protective Services or 911. No one called for 
help. It's hard to believe that the response would have been 
the same had the cries come from a child, a younger woman, or 
even a dog.
    What happened to Ruby Wise is not a fluke. Dr. Lachs' study 
found that only 1 in every 57 cases of elder neglect ever comes 
to light. Ruby Wise was one of the 56 who did not.
    And the phone surveys done by Dr. Lachs and others can't 
capture the elders at greatest risk: those who live in 
facilities; those who can't answer or don't have a phone; those 
who are too scared to speak because an abuser is close by; and 
those with dementia, like Ruby Wise.
    A 2010 University of California, Irvine study found that a 
staggering 47 percent of people with dementia who live at 
home--that's almost half--were abused or neglected by 
caregivers. Translated into human lives, these studies indicate 
that some 6 million Americans--mothers, fathers, grandparents--
are victims of elder abuse every year. And those numbers don't 
even include people who live in facilities where many of the 
most vulnerable elders live. Most nursing homes are dangerously 
understaffed, and countless people, like Ruby Wise, remain in 
risky, degrading, and even lethal situations to avoid them.
    This growing body of data presents a strong moral 
imperative for immediate attention. There's a strong fiscal 
imperative, too, because one kind of elder abuse often begets 
the next, setting off a cascade of untold suffering and 
expense. Costly acute and long-term care required by elders 
injured by abuse or neglect depletes Medicare and Medicaid. Dr. 
Lachs talked about his 2002 study finding that elder abuse 
victims are four times more likely to end up in nursing homes. 
And nursing home chains that neglect residents and bill for 
care they don't provide defraud Medicare and Medicaid. 
Financial exploitation pushes victims, whose life savings are 
stolen, to rely on public programs for housing. And abusive 
guardianships squander court resources.
    What's the total cost? It's likely many billions of dollars 
a year. But, we don't know yet, which is one reason we 
desperately need more research.
    What we know about elder abuse lags some 40 years behind 
child abuse and 20 years behind domestic violence. We need to 
know more about why it occurs, what practices and programs are 
effective in addressing it, and how to detect and prevent it. 
And yet, the National Institute on Aging, our government's 
leading agency for aging research, spends just 1/1,000th of its 
budget for elder abuse research. And private funders spend even 
less.
    As noted by the GAO and on these charts, the Federal effort 
on elder justice issues, pursued by a few dedicated officials, 
mostly juggling multiple responsibilities, is wholly 
inadequate. The problem deserves and urgently needs increased 
Federal priority, with resources to match. DOJ and HHS have for 
years had offices providing sustained leadership on elder abuse 
and domestic violence issues.
    The new Elder Justice Office proposed for DOJ, where I 
previously headed up the Elder Justice and Nursing Home 
Initiative, is a high-impact, low-cost measure that would 
provide coordination and evaluation, sustained attention, 
assistance for States and jobs, and, together with other 
agencies, lay a foundation for collection of elder abuse data, 
like the child abuse field has done for decades.
    Elder abuse can arrive unannounced in any family. It's not 
just an aging issue; it's an issue for all of us who care about 
the older people in our lives. We've spent countless billions 
to extend how long we live, but relatively little to assure the 
safety and well-being in the years that we've gained. Like 
Chris Wise, the son who ignored his mother's cries, we, as a 
Nation, have also been wearing earplugs. It's time that we 
remove them.
    Thank you.
    [The prepared statement of Ms. Connolly appears in the 
Appendix on page 147.]
    The Chairman. Thank you very much, Ms. Connolly.
    We'll turn now to Senator Blumenthal for some questions.
    Senator Blumenthal. Thank you, Mr. Chairman.
    And again, I want to thank you for your really tireless and 
relentless work on this issue and the legislation you've 
offered, and particularly the work today, on bringing together 
this remarkable panel.
    And thank you, to each of you, for being here, especially 
to Ms. Brown and Dr. Lachs, for your scientific work that 
really provides a intellectual and factual framework for the 
cries that we hear through the voices that have been 
transmitted through Mr. Rooney and through the many people who 
are not heard in our society when they're victims of this type 
of neglect and abuse.
    And I might say, Ms. Connolly, that many of the remarks 
that you made about abuse and neglect of elders can be said 
about victims of domestic violence, women who are unheard, and 
even children, who are often victims of abuse and neglect in 
their own homes, and have to be moved, if they're heard.
    But, I want to ask Dr. Lachs a specific question about the 
educational framework, education of lawyers, doctors, nurses, 
care providers, public officials. I know that you supervise 
residencies and training of members of your profession. What 
can be done to make those professions more sensitive and 
aware--and I would be interested in the views of others, as 
well--about the problems that they may encounter but may not 
recognize?
    Dr. Lachs. Well, you know, Senator, when I applied for a 
medical license in the State of New York, as a family violence 
expert, a geriatrician, an internist who practices geriatric 
medicine, I had to pass a--child abuse training, even though I 
don't take care of children, other than the sniffles of my own 
kids, periodically. There's no such requirement for older 
people. And we're beginning to see models of--like that, for 
probate judges, continuing legal education. Much of the role of 
these multidisciplinary centers, in addition to direct service 
to victims, is, in fact, public education.
    Many of the abusive situations we come upon as clinicians 
are situations in such that the victim and the abuser are so 
isolated that it's not recognized by the abuser that their 
behavior is non-normal.
    And isolation plays a major role here, Senator. You know, 
if a child doesn't come to school, or comes to school with a 
black eye, there's a modern-day equivalent of a truant officer 
who makes a phone call. In our society, older people may be 
retired and their social networks may shrink because of 
bereavement. And, ultimately, the network comes to only involve 
these two individuals, the abuser and the victim. And I tell 
the residents that, for that annual physical, that you may be 
the only person the victim sees in the course of a year. And 
that may be true of a whole number of legal and mental health 
and other providers. So, education is critical. It can be done 
by centers.
    Other members, testifiers, may have comments.
    Senator Blumenthal. Well, I think that is a--that's a very 
helpful observation. And, as you know, in a number of States, 
there are requirements for certain background checks as part of 
that certification process. And I wonder if members of the 
panel could comment on the efficacy of those background checks, 
or some system of checks, for care providers, people in 
positions of trust, and people who, similarly, have a 
responsibility.
    Dr. Lachs. I'm happy to say something about it. I mean, I'm 
a tenured physician at a good medical school. And when I 
started working in my nursing home, I had to have a criminal 
background check. I don't know the data on the efficacy; others 
can probably speak to that. But, I can tell you that I've 
testified in criminal and civil matters where those were not 
done, and the results were hideous.
    Senator Blumenthal. And I think one of the problems--if I 
can just interject--is that very often those background checks 
relate only to the State where that person is working. And so, 
he or she may have committed a variety of very serious crimes 
in other States, but the background check may not identify 
them.
    Ms. Quinn. Could I go back to the question about education? 
Because, in all but three States now, a wide range of 
professionals are required, mandated by State statute, to 
report suspected elder abuse to Adult Protective Services--
healthcare providers, social services, law enforcement, anybody 
who would come into contact, in a normal course of business, 
with older people. But, we haven't had the resources to develop 
the core trainings that could be sent out across the country so 
that States could train all those different professionals on 
what the requirement--just as they do in child abuse--what the 
requirements are, what the indicators are, where to report, 
what happens when you report.
    Senator Blumenthal. Thank you.
    My time has expired. And, unfortunately, like others in the 
committee, I have another hearing. I very, very much appreciate 
your help in this critical topic.
    Thank you very much.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    And I don't want to make this a bouquet-tossing contest, 
but I think your contribution, the legislation, and the fact 
that you always use this committee as a bully pulpit to layout 
how important it is that we address these concerns, is a huge 
public service. I want to thank you.
    And I know we're going to really benefit from having 
Senator Blumenthal on this committee, given his long record on 
these issues, as well.
    And, to the witnesses, a lot of you, I know, have been 
toiling out at the grassroots level for years and years. And I 
think that's why I want to ask you the following question.
    I was co-director of the Gray Panthers for many years, and 
ran the Legal Aid Office for the Elderly. And we were working 
on these issues then. And, sort of over the decades, I think 
it's clear that we have seen this problem grow, despite the 
fact that a number of useful bills have passed. I know Senator 
Kohl's predecessors on this committee have been interested in 
this. And I think we're going to go forward again with some 
very constructive suggestions. Clearly, bringing the first 
responders into this earlier is going to be of enormous 
benefit. I think trying to beef up prosecutions will be useful.
    But, the question I want to ask--and we can just go down 
the row; I'd be interested in your response--is, What, in your 
view, needs to be done so that, 10 years from now, we're not 
having a hearing that essentially revolves around the same 
issues--that we've seen another growth in the problem, we've 
seen the scamsters, you know, still at it, and we sort of 
relitigate the ground that we're dealing with today?
    So, why don't we just go right down the row. And I'm 
particularly interested in some of the ideas you have that 
don't just go to the question of additional funding. Obviously, 
we need adequate funding. But, just go down the row and give me 
your sense--you get to offer the idea that is most likely to 
make a difference so that, 10 years from now, we can look back 
and say that, ``On our watch, under the leadership of Chairman 
Kohl, we really got it right and made a big difference.''
    Start with you, Ms. Connolly. I know you've been at this 
for years, and we appreciate it.
    Ms. Connolly. Thank you, Senator Wyden.
    Dr. Lachs, during his testimony, said ``research and 
multidisciplinary teams.'' And I would echo that and add to 
that list, also, Federal leadership. This has been an area 
where a few people have been toiling in the trenches, but there 
hasn't been much high-level Federal leadership. And the bully 
pulpit makes a big difference, whether it's in Congress or in 
the Executive Branch, because where the Administration leads, 
often the rest of the country follows, and it could make an 
enormous difference.
    And that doesn't necessarily require additional dollars, 
although also, I think, in a time of budget austerity, which we 
are in now, really we can't afford not to start doing a better 
job with elder abuse, because all the indications are that it 
costs us countless billions of dollars a year. We really need 
to start looking at that issue better. Start making it all of 
our issue.
    Senator Wyden. On the research question--then I'll just go 
right to the row--but since you touched on it, I think it's 
pretty obvious that financial exploitation can end up having 
seniors, who previously have been in their home, have been able 
to be in the community, have ended up in public housing, have 
needed public assistance. Any sense on two measures: How many 
seniors have actually been forced into public programs by elder 
abuse? And second, how much this has cost taxpayers?
    Ms. Connolly. We had a little discussion about that 
earlier. And I don't believe that we have any data on those 
numbers, Senator.
    And that goes back to the research issue, and the dire 
paucity of research. It's really a huge issue in the field. We 
don't know what works and we don't know what successful 
interventions even look like. And that goes for the cost-saving 
aspect of interventions as well. So, it's really a problem.
    And also, given that we have a very tattered safety net, 
one that's full of holes, and very scattershot systems that are 
all over the place, we really need to take a good, hard look 
at, What are the needs of an Adult Protective Services and an 
ombudsman program and the legal services and other services 
across the board. How do we work better together, and more 
efficiently, by having resource centers, as Ms. Quinn testified 
to, and technical support, to really help everybody do their 
jobs better and to have all those systems talking to one 
another?
    Those are not incredibly high-cost measures. That's just 
being smart about how we address this problem. And we haven't 
really been smart about it, because we've lacked that 
leadership. And it's extremely different from State to State. 
You have a different set of laws and a different set of 
responsibilities across the board. And that's also an 
impediment to the data collection.
    These are issues that are very difficult, but not 
insurmountable. Our colleagues, for example, in the child abuse 
and domestic violence field, are way ahead of us, in terms of 
getting a better handle on how to put together both the safety 
net and the knowledge to inform our practices.
    Senator Wyden. So, Ms. Connolly comes down on the side of 
research.
    Why don't we just go right down the row. And--10 years from 
now--you want to make a difference today that'll pay off then.
    Ms. Brandl. The question is a challenging one, given that 
the population is aging and we live in such a youth-orientated 
culture. So, how do we sort of change--really address ageism 
and the youth-orientated culture to put more focus on this 
issue?
    And I'm going to agree with what I think the panelists here 
have already said. I completely agree with MT, that Federal 
leadership is huge. What happens here in D.C., what happens in 
government, this committee hearing, in and of itself, raising 
awareness is hugely important. And that needs to happen.
    I also agree with Mark and what others have said about a 
multidisciplinary approach, that we really--what we have found, 
with the Office on Violence Against Women's Abuse in Later Life 
Program, is it really is law enforcement, prosecutors, court 
personnel, advocates, the aging system, Adult Protective 
Services, and others working together. These cases are much too 
complicated for one system to address the issues on their own. 
And, frankly, it's more cost effective if we're sharing the 
load and having a multidisciplinary team come together, figure 
out smart, innovative ideas to respond to cases and intervene, 
and begin to think about prevention strategies in the 
community, as well.
    So, I think it's the high Federal level, as well as really 
reaching folks on the grassroots level to give them more 
training, more information about what to look for and how they 
can respond and how to work better together.
    Dr. Lachs. Senator, I'm going to come down on the side of 
centers. And I want to respond to your comment about addressing 
this in a way that's not purely a resource issue. And I'm going 
to liken this problem to something that we've seen in Medicare, 
something I'm also familiar with, as a geriatrician. You know, 
we've discovered that lots of problems in safety with patients, 
and readmissions, come from a problem called ``care 
transitions.'' We found out that the real problem with 
healthcare, particularly for older people, is when they move 
from place to place, from physician to physician. That's the 
reason, we think, that many patients are readmitted 
unnecessarily.
    The more I do this, the more I have come to view elder 
mistreatment and the interventions we need as a care transition 
problem, people move from system to system, from housing to law 
enforcement to any number of venues, and no one has ownership 
of the entire case or the whole body of information.
    The center model, I think, really obviates that and makes 
someone take ownership in a way that decreases the 
inefficiencies of having multiple providers and a record that 
doesn't sit in any one place. I think the center model really 
offers great hope, not only as a strategy for fighting the 
indignant situation we find older people in, but also as a way 
of doing it in a way that may be very cost effective. So, 
centers. And there'll be some research, obviously.
    Senator Wyden. What you've described is almost the elder 
abuse equivalent of the medical home.
    Dr. Lachs. Very good. That's right.
    Senator Wyden. Wouldn't you say that's almost the analogy?
    Dr. Lachs. I think that's right. I think, again--so, over 
the last 5 or 10 years, we've figured out that, you know, rates 
of Medicare readmission from hospitals----
    Senator Wyden. Yeah.
    Dr. Lachs [continuing]. Are 25 percent, nationally. I sit 
in these multidisciplinary conferences, that I'm describing to 
you, that are new, and I see people, sort of--ears perk--that 
say, ``You know, wait a second. I heard about that client when 
they came through the housing system or the protective service 
system.'' And, you know, there certainly shouldn't be 
duplication of resources. I think we need some uber knowledge 
of how these individuals are traversing through the system. So, 
I think that offers great hope.
    There are some very important research questions in there. 
But, that's how I would respond to your question, very 
specifically.
    Senator Wyden. I'm going to keep Chairman Kohl in charge of 
the uber knowledge.
    [Laughter.]
    I'm way over my time for y'all. Your suggestions--you get 
to make a difference today that pays off 10 years from now.
    Ms. Quinn. Well, I will echo what's been said before. 
Certainly, Federal leadership. I would like to commend 
Assistant Secretary for Aging, Kathy Greenlee, who has really 
stepped up the game, in terms of leadership around elder 
justice, elder abuse issues. We certainly need more research, 
certainly endorse and--APS leads and is part of many 
multidisciplinary teams, certainly need more education of the 
public, of professionals, of responders.
    We have to reduce the isolation of older people. That is 
one of the key--absolute key prevention and intervention 
responses. And the--my concern about that is that the level of 
community services is decreasing. And that--putting community--
in-home, community-based services, is a major way to reduce 
isolation: home delivered meals, chore/housekeeping, that kind 
of thing.
    And I have to say, I think we really have to pay attention 
to the people who are the boots on the ground in the fight 
against elder abuse, and that is the overwhelmed, totally 
underfunded, totally without a national infrastructure system 
of Adult Protective Services. We really need to figure out how 
to build their capacity, how to get them well trained. If you 
want to work at Starbucks, you have to go through 40 hours of 
training before you make your first latte, but we will send an 
APS person out, in some jurisdictions, because they don't have 
any money, right out of college and hope they learn on the job. 
So, this is just not acceptable. They're making life-and-death 
decisions concerning these really frail and vulnerable people, 
and they really need some help.
    So, thank you.
    The Chairman. That's good.
    Ms. Brown. You know, we asked ourselves the same question 
when we were doing this work, because, as we looked back in 
past efforts, we saw many of the same types of recommendations 
and issues, again and again, that we've heard here today. And 
these are not new issues. So, we asked ourselves, What is the 
thing that might make the difference? And I really think I 
agree, that Federal leadership is a big part of it, both on the 
congressional side and having commitment and the willingness to 
be proactive on the administration side, as well.
    Senator Wyden. Mr. Chairman, thank you for the extra time.
    The Chairman. Thank you very much, Senator Wyden.
    And we thank this panel very much. You really represent as 
much expertise as there is in this country on this very 
important subject. And we appreciate your coming here to 
Washington to give us the benefit of your knowledge and your 
experience.
    Thank you so much.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]


                                APPENDIX

[GRAPHIC] [TIFF OMITTED] T6957.121

[GRAPHIC] [TIFF OMITTED] T6957.122

[GRAPHIC] [TIFF OMITTED] T6957.065

[GRAPHIC] [TIFF OMITTED] T6957.066

[GRAPHIC] [TIFF OMITTED] T6957.067

[GRAPHIC] [TIFF OMITTED] T6957.068

[GRAPHIC] [TIFF OMITTED] T6957.069

[GRAPHIC] [TIFF OMITTED] T6957.070

[GRAPHIC] [TIFF OMITTED] T6957.071

[GRAPHIC] [TIFF OMITTED] T6957.072

[GRAPHIC] [TIFF OMITTED] T6957.073

[GRAPHIC] [TIFF OMITTED] T6957.074

[GRAPHIC] [TIFF OMITTED] T6957.075

[GRAPHIC] [TIFF OMITTED] T6957.076

[GRAPHIC] [TIFF OMITTED] T6957.077

[GRAPHIC] [TIFF OMITTED] T6957.078

[GRAPHIC] [TIFF OMITTED] T6957.079

[GRAPHIC] [TIFF OMITTED] T6957.001

[GRAPHIC] [TIFF OMITTED] T6957.002

[GRAPHIC] [TIFF OMITTED] T6957.003

[GRAPHIC] [TIFF OMITTED] T6957.004

[GRAPHIC] [TIFF OMITTED] T6957.005

[GRAPHIC] [TIFF OMITTED] T6957.006

[GRAPHIC] [TIFF OMITTED] T6957.007

[GRAPHIC] [TIFF OMITTED] T6957.008

[GRAPHIC] [TIFF OMITTED] T6957.009

[GRAPHIC] [TIFF OMITTED] T6957.010

[GRAPHIC] [TIFF OMITTED] T6957.011

[GRAPHIC] [TIFF OMITTED] T6957.012

[GRAPHIC] [TIFF OMITTED] T6957.013

[GRAPHIC] [TIFF OMITTED] T6957.014

[GRAPHIC] [TIFF OMITTED] T6957.015

[GRAPHIC] [TIFF OMITTED] T6957.016

[GRAPHIC] [TIFF OMITTED] T6957.017

[GRAPHIC] [TIFF OMITTED] T6957.018

[GRAPHIC] [TIFF OMITTED] T6957.019

[GRAPHIC] [TIFF OMITTED] T6957.020

[GRAPHIC] [TIFF OMITTED] T6957.021

[GRAPHIC] [TIFF OMITTED] T6957.022

[GRAPHIC] [TIFF OMITTED] T6957.023

[GRAPHIC] [TIFF OMITTED] T6957.024

[GRAPHIC] [TIFF OMITTED] T6957.025

[GRAPHIC] [TIFF OMITTED] T6957.026

[GRAPHIC] [TIFF OMITTED] T6957.027

[GRAPHIC] [TIFF OMITTED] T6957.028

[GRAPHIC] [TIFF OMITTED] T6957.029

[GRAPHIC] [TIFF OMITTED] T6957.030

[GRAPHIC] [TIFF OMITTED] T6957.031

[GRAPHIC] [TIFF OMITTED] T6957.032

[GRAPHIC] [TIFF OMITTED] T6957.033

[GRAPHIC] [TIFF OMITTED] T6957.034

[GRAPHIC] [TIFF OMITTED] T6957.035

[GRAPHIC] [TIFF OMITTED] T6957.036

[GRAPHIC] [TIFF OMITTED] T6957.037

[GRAPHIC] [TIFF OMITTED] T6957.038

[GRAPHIC] [TIFF OMITTED] T6957.039

[GRAPHIC] [TIFF OMITTED] T6957.040

[GRAPHIC] [TIFF OMITTED] T6957.041

[GRAPHIC] [TIFF OMITTED] T6957.042

[GRAPHIC] [TIFF OMITTED] T6957.043

[GRAPHIC] [TIFF OMITTED] T6957.044

[GRAPHIC] [TIFF OMITTED] T6957.045

[GRAPHIC] [TIFF OMITTED] T6957.046

[GRAPHIC] [TIFF OMITTED] T6957.047

[GRAPHIC] [TIFF OMITTED] T6957.048

[GRAPHIC] [TIFF OMITTED] T6957.049

[GRAPHIC] [TIFF OMITTED] T6957.050

[GRAPHIC] [TIFF OMITTED] T6957.051

[GRAPHIC] [TIFF OMITTED] T6957.052

[GRAPHIC] [TIFF OMITTED] T6957.053

[GRAPHIC] [TIFF OMITTED] T6957.054

[GRAPHIC] [TIFF OMITTED] T6957.055

[GRAPHIC] [TIFF OMITTED] T6957.056

[GRAPHIC] [TIFF OMITTED] T6957.057

[GRAPHIC] [TIFF OMITTED] T6957.058

[GRAPHIC] [TIFF OMITTED] T6957.059

[GRAPHIC] [TIFF OMITTED] T6957.060

[GRAPHIC] [TIFF OMITTED] T6957.061

[GRAPHIC] [TIFF OMITTED] T6957.062

[GRAPHIC] [TIFF OMITTED] T6957.063

[GRAPHIC] [TIFF OMITTED] T6957.064

[GRAPHIC] [TIFF OMITTED] T6957.080

[GRAPHIC] [TIFF OMITTED] T6957.081

[GRAPHIC] [TIFF OMITTED] T6957.082

[GRAPHIC] [TIFF OMITTED] T6957.083

[GRAPHIC] [TIFF OMITTED] T6957.084

[GRAPHIC] [TIFF OMITTED] T6957.085

[GRAPHIC] [TIFF OMITTED] T6957.086

[GRAPHIC] [TIFF OMITTED] T6957.087

[GRAPHIC] [TIFF OMITTED] T6957.088

[GRAPHIC] [TIFF OMITTED] T6957.089

[GRAPHIC] [TIFF OMITTED] T6957.090

[GRAPHIC] [TIFF OMITTED] T6957.091

[GRAPHIC] [TIFF OMITTED] T6957.113

[GRAPHIC] [TIFF OMITTED] T6957.114

[GRAPHIC] [TIFF OMITTED] T6957.115

[GRAPHIC] [TIFF OMITTED] T6957.116

[GRAPHIC] [TIFF OMITTED] T6957.117

[GRAPHIC] [TIFF OMITTED] T6957.118

[GRAPHIC] [TIFF OMITTED] T6957.119

[GRAPHIC] [TIFF OMITTED] T6957.120

[GRAPHIC] [TIFF OMITTED] T6957.300

[GRAPHIC] [TIFF OMITTED] T6957.301

[GRAPHIC] [TIFF OMITTED] T6957.302

[GRAPHIC] [TIFF OMITTED] T6957.303

[GRAPHIC] [TIFF OMITTED] T6957.304

[GRAPHIC] [TIFF OMITTED] T6957.305

[GRAPHIC] [TIFF OMITTED] T6957.306

[GRAPHIC] [TIFF OMITTED] T6957.307

[GRAPHIC] [TIFF OMITTED] T6957.308

[GRAPHIC] [TIFF OMITTED] T6957.309

[GRAPHIC] [TIFF OMITTED] T6957.310

[GRAPHIC] [TIFF OMITTED] T6957.311

[GRAPHIC] [TIFF OMITTED] T6957.312

[GRAPHIC] [TIFF OMITTED] T6957.313

[GRAPHIC] [TIFF OMITTED] T6957.314

[GRAPHIC] [TIFF OMITTED] T6957.315

[GRAPHIC] [TIFF OMITTED] T6957.316

[GRAPHIC] [TIFF OMITTED] T6957.317

[GRAPHIC] [TIFF OMITTED] T6957.318

[GRAPHIC] [TIFF OMITTED] T6957.319

[GRAPHIC] [TIFF OMITTED] T6957.092

[GRAPHIC] [TIFF OMITTED] T6957.093

[GRAPHIC] [TIFF OMITTED] T6957.094

[GRAPHIC] [TIFF OMITTED] T6957.095

[GRAPHIC] [TIFF OMITTED] T6957.096

[GRAPHIC] [TIFF OMITTED] T6957.097

[GRAPHIC] [TIFF OMITTED] T6957.098

[GRAPHIC] [TIFF OMITTED] T6957.099

[GRAPHIC] [TIFF OMITTED] T6957.100

[GRAPHIC] [TIFF OMITTED] T6957.101

[GRAPHIC] [TIFF OMITTED] T6957.102

[GRAPHIC] [TIFF OMITTED] T6957.103

[GRAPHIC] [TIFF OMITTED] T6957.104

[GRAPHIC] [TIFF OMITTED] T6957.105

[GRAPHIC] [TIFF OMITTED] T6957.106

[GRAPHIC] [TIFF OMITTED] T6957.107

[GRAPHIC] [TIFF OMITTED] T6957.108

[GRAPHIC] [TIFF OMITTED] T6957.109

[GRAPHIC] [TIFF OMITTED] T6957.110

[GRAPHIC] [TIFF OMITTED] T6957.111

[GRAPHIC] [TIFF OMITTED] T6957.112

[GRAPHIC] [TIFF OMITTED] T6957.125

[GRAPHIC] [TIFF OMITTED] T6957.126

[GRAPHIC] [TIFF OMITTED] T6957.123

[GRAPHIC] [TIFF OMITTED] T6957.124

[GRAPHIC] [TIFF OMITTED] T6957.127

[GRAPHIC] [TIFF OMITTED] T6957.128

[GRAPHIC] [TIFF OMITTED] T6957.129

[GRAPHIC] [TIFF OMITTED] T6957.130

[GRAPHIC] [TIFF OMITTED] T6957.131

[GRAPHIC] [TIFF OMITTED] T6957.132

[GRAPHIC] [TIFF OMITTED] T6957.133

[GRAPHIC] [TIFF OMITTED] T6957.134

[GRAPHIC] [TIFF OMITTED] T6957.135

[GRAPHIC] [TIFF OMITTED] T6957.136

[GRAPHIC] [TIFF OMITTED] T6957.137

[GRAPHIC] [TIFF OMITTED] T6957.138

[GRAPHIC] [TIFF OMITTED] T6957.139

[GRAPHIC] [TIFF OMITTED] T6957.140

[GRAPHIC] [TIFF OMITTED] T6957.141

[GRAPHIC] [TIFF OMITTED] T6957.142

[GRAPHIC] [TIFF OMITTED] T6957.143

[GRAPHIC] [TIFF OMITTED] T6957.144

[GRAPHIC] [TIFF OMITTED] T6957.145

[GRAPHIC] [TIFF OMITTED] T6957.146

[GRAPHIC] [TIFF OMITTED] T6957.147

[GRAPHIC] [TIFF OMITTED] T6957.148

[GRAPHIC] [TIFF OMITTED] T6957.149

[GRAPHIC] [TIFF OMITTED] T6957.150

[GRAPHIC] [TIFF OMITTED] T6957.151

[GRAPHIC] [TIFF OMITTED] T6957.152

[GRAPHIC] [TIFF OMITTED] T6957.153

[GRAPHIC] [TIFF OMITTED] T6957.154

[GRAPHIC] [TIFF OMITTED] T6957.155

[GRAPHIC] [TIFF OMITTED] T6957.156

[GRAPHIC] [TIFF OMITTED] T6957.157

[GRAPHIC] [TIFF OMITTED] T6957.158

[GRAPHIC] [TIFF OMITTED] T6957.159

[GRAPHIC] [TIFF OMITTED] T6957.160

[GRAPHIC] [TIFF OMITTED] T6957.161

[GRAPHIC] [TIFF OMITTED] T6957.162

[GRAPHIC] [TIFF OMITTED] T6957.163

[GRAPHIC] [TIFF OMITTED] T6957.164

[GRAPHIC] [TIFF OMITTED] T6957.165

[GRAPHIC] [TIFF OMITTED] T6957.166

[GRAPHIC] [TIFF OMITTED] T6957.167

[GRAPHIC] [TIFF OMITTED] T6957.168

[GRAPHIC] [TIFF OMITTED] T6957.169

[GRAPHIC] [TIFF OMITTED] T6957.170

[GRAPHIC] [TIFF OMITTED] T6957.171

[GRAPHIC] [TIFF OMITTED] T6957.172

[GRAPHIC] [TIFF OMITTED] T6957.173

[GRAPHIC] [TIFF OMITTED] T6957.174

[GRAPHIC] [TIFF OMITTED] T6957.175

[GRAPHIC] [TIFF OMITTED] T6957.176

[GRAPHIC] [TIFF OMITTED] T6957.177

[GRAPHIC] [TIFF OMITTED] T6957.178

[GRAPHIC] [TIFF OMITTED] T6957.179

[GRAPHIC] [TIFF OMITTED] T6957.180

[GRAPHIC] [TIFF OMITTED] T6957.181

[GRAPHIC] [TIFF OMITTED] T6957.182

[GRAPHIC] [TIFF OMITTED] T6957.183

[GRAPHIC] [TIFF OMITTED] T6957.184

[GRAPHIC] [TIFF OMITTED] T6957.185

[GRAPHIC] [TIFF OMITTED] T6957.186

[GRAPHIC] [TIFF OMITTED] T6957.187

[GRAPHIC] [TIFF OMITTED] T6957.188

[GRAPHIC] [TIFF OMITTED] T6957.189

[GRAPHIC] [TIFF OMITTED] T6957.190

[GRAPHIC] [TIFF OMITTED] T6957.191

[GRAPHIC] [TIFF OMITTED] T6957.192

[GRAPHIC] [TIFF OMITTED] T6957.193

[GRAPHIC] [TIFF OMITTED] T6957.194

[GRAPHIC] [TIFF OMITTED] T6957.195

[GRAPHIC] [TIFF OMITTED] T6957.196

[GRAPHIC] [TIFF OMITTED] T6957.197

[GRAPHIC] [TIFF OMITTED] T6957.198

[GRAPHIC] [TIFF OMITTED] T6957.199

[GRAPHIC] [TIFF OMITTED] T6957.200

[GRAPHIC] [TIFF OMITTED] T6957.201

[GRAPHIC] [TIFF OMITTED] T6957.202

[GRAPHIC] [TIFF OMITTED] T6957.203

[GRAPHIC] [TIFF OMITTED] T6957.204

[GRAPHIC] [TIFF OMITTED] T6957.205

[GRAPHIC] [TIFF OMITTED] T6957.206

[GRAPHIC] [TIFF OMITTED] T6957.207

[GRAPHIC] [TIFF OMITTED] T6957.208

[GRAPHIC] [TIFF OMITTED] T6957.209

[GRAPHIC] [TIFF OMITTED] T6957.210

[GRAPHIC] [TIFF OMITTED] T6957.211

[GRAPHIC] [TIFF OMITTED] T6957.212

[GRAPHIC] [TIFF OMITTED] T6957.213

[GRAPHIC] [TIFF OMITTED] T6957.214

[GRAPHIC] [TIFF OMITTED] T6957.215

[GRAPHIC] [TIFF OMITTED] T6957.216

[GRAPHIC] [TIFF OMITTED] T6957.217

[GRAPHIC] [TIFF OMITTED] T6957.218

[GRAPHIC] [TIFF OMITTED] T6957.219

[GRAPHIC] [TIFF OMITTED] T6957.220

[GRAPHIC] [TIFF OMITTED] T6957.221

[GRAPHIC] [TIFF OMITTED] T6957.222

[GRAPHIC] [TIFF OMITTED] T6957.223

[GRAPHIC] [TIFF OMITTED] T6957.224

[GRAPHIC] [TIFF OMITTED] T6957.225

[GRAPHIC] [TIFF OMITTED] T6957.226

[GRAPHIC] [TIFF OMITTED] T6957.227

[GRAPHIC] [TIFF OMITTED] T6957.228

[GRAPHIC] [TIFF OMITTED] T6957.229

[GRAPHIC] [TIFF OMITTED] T6957.234

[GRAPHIC] [TIFF OMITTED] T6957.235

[GRAPHIC] [TIFF OMITTED] T6957.236

[GRAPHIC] [TIFF OMITTED] T6957.237

[GRAPHIC] [TIFF OMITTED] T6957.238

[GRAPHIC] [TIFF OMITTED] T6957.239

[GRAPHIC] [TIFF OMITTED] T6957.240

[GRAPHIC] [TIFF OMITTED] T6957.241

[GRAPHIC] [TIFF OMITTED] T6957.242

[GRAPHIC] [TIFF OMITTED] T6957.243

[GRAPHIC] [TIFF OMITTED] T6957.244

[GRAPHIC] [TIFF OMITTED] T6957.245

[GRAPHIC] [TIFF OMITTED] T6957.246

[GRAPHIC] [TIFF OMITTED] T6957.247

[GRAPHIC] [TIFF OMITTED] T6957.248

[GRAPHIC] [TIFF OMITTED] T6957.249

[GRAPHIC] [TIFF OMITTED] T6957.250

[GRAPHIC] [TIFF OMITTED] T6957.251

[GRAPHIC] [TIFF OMITTED] T6957.252

[GRAPHIC] [TIFF OMITTED] T6957.253

[GRAPHIC] [TIFF OMITTED] T6957.254

[GRAPHIC] [TIFF OMITTED] T6957.255

[GRAPHIC] [TIFF OMITTED] T6957.256

[GRAPHIC] [TIFF OMITTED] T6957.257

[GRAPHIC] [TIFF OMITTED] T6957.258

[GRAPHIC] [TIFF OMITTED] T6957.259

[GRAPHIC] [TIFF OMITTED] T6957.260

[GRAPHIC] [TIFF OMITTED] T6957.261

[GRAPHIC] [TIFF OMITTED] T6957.262

[GRAPHIC] [TIFF OMITTED] T6957.230

[GRAPHIC] [TIFF OMITTED] T6957.231

[GRAPHIC] [TIFF OMITTED] T6957.232

[GRAPHIC] [TIFF OMITTED] T6957.233

[GRAPHIC] [TIFF OMITTED] T6957.263

[GRAPHIC] [TIFF OMITTED] T6957.264

[GRAPHIC] [TIFF OMITTED] T6957.265

[GRAPHIC] [TIFF OMITTED] T6957.266

[GRAPHIC] [TIFF OMITTED] T6957.267

[GRAPHIC] [TIFF OMITTED] T6957.268

[GRAPHIC] [TIFF OMITTED] T6957.269

[GRAPHIC] [TIFF OMITTED] T6957.270

[GRAPHIC] [TIFF OMITTED] T6957.271

[GRAPHIC] [TIFF OMITTED] T6957.272

[GRAPHIC] [TIFF OMITTED] T6957.273

[GRAPHIC] [TIFF OMITTED] T6957.274

[GRAPHIC] [TIFF OMITTED] T6957.275

[GRAPHIC] [TIFF OMITTED] T6957.276

[GRAPHIC] [TIFF OMITTED] T6957.277

[GRAPHIC] [TIFF OMITTED] T6957.278

[GRAPHIC] [TIFF OMITTED] T6957.279

[GRAPHIC] [TIFF OMITTED] T6957.280

[GRAPHIC] [TIFF OMITTED] T6957.281

[GRAPHIC] [TIFF OMITTED] T6957.282

[GRAPHIC] [TIFF OMITTED] T6957.283

[GRAPHIC] [TIFF OMITTED] T6957.284

[GRAPHIC] [TIFF OMITTED] T6957.285

[GRAPHIC] [TIFF OMITTED] T6957.286

[GRAPHIC] [TIFF OMITTED] T6957.287

[GRAPHIC] [TIFF OMITTED] T6957.288

[GRAPHIC] [TIFF OMITTED] T6957.289

[GRAPHIC] [TIFF OMITTED] T6957.290

[GRAPHIC] [TIFF OMITTED] T6957.291

[GRAPHIC] [TIFF OMITTED] T6957.292

[GRAPHIC] [TIFF OMITTED] T6957.293

[GRAPHIC] [TIFF OMITTED] T6957.294

[GRAPHIC] [TIFF OMITTED] T6957.297

[GRAPHIC] [TIFF OMITTED] T6957.298

[GRAPHIC] [TIFF OMITTED] T6957.299

[GRAPHIC] [TIFF OMITTED] T6957.295

[GRAPHIC] [TIFF OMITTED] T6957.296

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
